           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  SUPPLEMENTAL SECURITY INCOME
        REDETERMINATIONS


    July 2009    A-07-09-29146




   EVALUATION
     REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 14, 2009                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Redeterminations (A-07-09-29146)


           OBJECTIVE
           The objective of this evaluation was to determine the financial impact to the General
           Fund as a result of the Social Security Administration (SSA) conducting reduced
           numbers of Supplemental Security Income (SSI) redeterminations.

           BACKGROUND
           SSI is a nationwide, Federal cash assistance program administered by SSA that
           provides a minimum level of income to financially needy individuals who are aged,
                              1
           blind, or disabled. Payments under the SSI program are funded from the
                                         2
           Government’s General Fund, which is financed through tax payments from the
           American public. No individual shall be considered eligible for SSI payments for any
           period during which they have income or resources that exceed the allowable amounts
           established under the Social Security Act. 3 In addition, relevant information will be
           verified from independent or collateral sources to ensure such payments are correct
                                                         4
           and are only provided to eligible individuals. SSI recipients are required to report
           events and changes of circumstances that may affect their eligibility and payment
                                                                                         5
           amounts, including changes in income, resources, and living arrangements.




           1
               The Social Security Act § 1601, et seq.; 42 U.S.C. § 1381, et seq.
           2
               20 C.F.R. § 416.110.
           3
               The Social Security Act § 1611(a); 42 U.S.C. § 1382(a); 20 C.F.R. § 416.202(c) and (d).
           4
               The Social Security Act § 1631(e); 42 U.S.C. § 1383(e); 20 C.F.R. § 416.207.
           5
               The Social Security Act § 1631(e)(1); 42 U.S.C. § 1383(e)(1); 20 C.F.R. § 416.701; 20 C.F.R. § 416.708.
Page 2 - The Commissioner

SSA has implemented measures to help identify SSI recipients with excess income
and/or resources, such as periodically conducting redeterminations to determine
whether recipients are still eligible for and receiving the correct SSI payments. A
redetermination is a review of a recipient’s non-medical eligibility factors, such as
income, resources, and living arrangements. There are two types of redeterminations:
scheduled and unscheduled. Scheduled redeterminations are conducted periodically
depending on the likelihood of payment error. Unscheduled redeterminations are
conducted based on a report of change in a recipient’s circumstances or if SSA
otherwise learns about a change that may affect eligibility or payment amount. 6

RESULTS OF REVIEW
The number of SSI redeterminations conducted by SSA has substantially decreased
although the number of SSI recipients has increased. In fact, between Fiscal Years
(FY) 2003 and 2008, redeterminations decreased by more than 60 percent. According
to SSA, it was not able to conduct as many redeterminations as needed because of
budget limitations and increases in SSA’s core workloads. We estimate SSA could
have saved an additional $3.3 billion during FYs 2008 and 2009 by conducting
redeterminations at the same level it did in FY 2003.

Redeterminations Have Decreased in Recent Fiscal Years

In 1997, the Government Accountability Office (GAO) designated the SSI program as
high risk. At that time, GAO indicated SSA lacked an effective plan to address
overpayments. SSA took a number of steps to improve oversight of the SSI program,
resulting in GAO’s removal of the SSI program from its high-risk list in 2003. From
FYs 2000 through 2004, the number of redeterminations as a percent of recipients was
consistent at approximately 33 to 36 percent (see Table 1).




6
 The Social Security Act §§1611(c)(1) and 1619(b)(2)(A), 42 U.S.C. §§ 1382(c)(1) and 1382h(b)(2)(A);
20 C.F.R. 416.204; Program Operations Manual System SI 02305.001.
                     Page 3 - The Commissioner


                                           Table 1: SSI Redeterminations and Recipients 2000 - 2009
                                              Number of     Number of SSI
                           Fiscal                                            Redeterminations as Percent of
                                          Redeterminations     Recipients
                           Year                           7                8           Recipients
                                           (in thousands)   (in thousands)
                           2000                  2,182            6,595                   33
                           2001                  2,316            6,638                   35
                           2002                  2,311            6,710                   34
                           2003                  2,450            6,781                   36
                           2004                  2,279            6,894                   33
                           2005                  1,725            7,025                   25
                           2006                  1,071            7,109                   15
                           2007                    692            7,268                   10
                           2008                    900            7,384                   12
                           2009                  1,382 9          7,504                   18

                     Once the SSI program was removed from GAO’s high-risk list, the number of
                     redeterminations conducted each year decreased by more than 60 percent between
                     FYs 2003 and 2008 (see Table 1 and Figure 1). Also, the number of redeterminations
                     completed as a percentage of total SSI recipients decreased 24 percent between
                     FYs 2003 and 2008, from 36 to 12 percent, although the number of SSI recipients
                     increased (see Figure 2).

                                                                                                                    Figure 2: Redeterminations as Percent of
                           Figure 1: SSI Redeterminations and Recipients
                                                                                                                            Recipients FYs 2000-2009
                                           FYs 2000-2009
                    8.00                                                                               40%
                    7.00                                                                               35%
                                                                Number of SSI
                    6.00                                                                               30%
Number (Millions)




                                                                 Recipients
                    5.00                                                                               25%
                    4.00                                                                               20%
                                                                  Number of
                    3.00                                                                               15%
                                                               Redeterminations
                    2.00                                                                               10%
                    1.00                                                                               5%
                    0.00                                                                               0%
                                                                                                             2000

                                                                                                                      2001

                                                                                                                             2002

                                                                                                                                    2003

                                                                                                                                           2004

                                                                                                                                                  2005

                                                                                                                                                         2006

                                                                                                                                                                2007

                                                                                                                                                                       2008

                                                                                                                                                                              2009
                            2000

                                   2001

                                          2002

                                                 2003

                                                        2004

                                                                 2005

                                                                        2006

                                                                                  2007

                                                                                         2008

                                                                                                2009




                     7
                      The number of redeterminations does not include limited issues, also known as targeted
                     redeterminations. Limited issues are selected for limited review because of a single issue, such as an
                     alert resulting from a match between SSA’s records and those of another agency.
                     8
                      The number of SSI recipients receiving a Federal SSI payment, State supplement, or both at the
                     beginning of each FY, as provided by SSA’s Office of the Chief Actuary.
                     9
                      Estimated number of redeterminations SSA plans to conduct in FY 2009, based on information provided
                     by SSA’s Office of Budget.
Page 4 - The Commissioner

According to SSA, it was not able to conduct as many redeterminations as needed
because of budget limitations and increases in SSA’s core workloads, such as
retirement claims, disability claims, and enumerations. Therefore, SSA stated it was
forced to focus resources on these workloads to prevent degradation of fundamental
                  10
Agency services. Also, SSA directly attributes a decrease in SSI payment accuracy to
the decrease in redeterminations. For example, in FY 2003, SSA found that
93.9 percent of SSI payments was free of overpayment error while only 90.9 percent of
SSI payments was free of overpayment error in FY 2007. This decline in payment
accuracy occurred during the same period the number of redeterminations declined
from 2.4 million in FY 2003 to 692,000 in FY 2007. Further, SSI payment accuracy was
lower during this period than when the SSI program was placed on GAO’s high-risk list
in FY 1997 when 94.7 percent of payments was free of overpayment.

Savings Lost by Conducting Fewer Redeterminations

To calculate the savings lost because SSA did not conduct redeterminations at the
same level as FY 2003, we requested the number of redeterminations that needed to
be conducted during FYs 2004 through 2009. Although SSA stated it was not able to
conduct the number of redeterminations needed each year, it was unable to provide the
numbers that were necessary. The number of redeterminations SSA conducts each
year is based on budget, organizational capacity, and workload priorities.

We calculated the potential number of redeterminations for each FY based on the
FY 2003 level of redeterminations as a percent of recipients, or 36 percent (see
Table 1). Using the potential number of redeterminations, we estimated the additional
savings SSA could have identified during FYs 2008 and 2009 based on SSA’s reported
                                            11
cost-savings ratio of $7 for every $1 spent. The additional savings for the 2-year
period totaled approximately $3.3 billion (see
Table 2 and Appendix C). To achieve these             Table 2: Potential Additional
additional savings, SSA would have needed             Savings FYs 2008 and 2009
to allocate more budgeted funds to its             Fiscal   Potential Additional Savings
redetermination workload. However, by doing        Year              (in millions)
so, it may not have been able to complete the      2009                 $1,313
workloads on which the budgeted funds were         2008                 $1,942
actually spent.                                    Total                $3,255



10
  According to SSA’s Annual Report of the Supplemental Security Income Program, issued in May 2008,
the drop in the number of redeterminations during FYs 2004 through 2007 suggests a potential loss of
over $3 billion.
11
   SSA has historically reported the cost-savings ratio of $7 to $1 in documents as early as its
Performance Plan for Fiscal Year 2001 and Revised Final Fiscal Year 2000 Performance Plan. According
to SSA, the cost-savings ratio could fluctuate depending on the mix of cases selected for redetermination,
since some cases result in higher savings than other cases. However, as of March 2009, SSA could not
provide documentation to support the calculation of this ratio. As such, we did not audit the validity of this
ratio.
Page 5 - The Commissioner

SSA should continue to work with Congress to secure the funds necessary each year to
conduct all redeterminations needed to avoid potential losses. To do so, SSA should
establish a methodology to identify the number of redeterminations that are needed
each year. To the extent the annual number of necessary redeterminations is not
completed, SSA should identify the lost savings and document why the number of
necessary redeterminations was not completed. To identify lost savings, SSA should
establish a methodology to identify a cost-savings ratio for redeterminations conducted
each year. SSA does not identify a cost-savings ratio each year for the
redeterminations completed. Instead, from FYs 2001 to 2009, SSA has reported
                                                       12
savings of $7 for every $1 spent on redeterminations. Since a cost-savings ratio is
important to illustrate to Congress the benefit of conducting redeterminations, SSA
should ensure it provides Congress with current and accurate cost-savings information
each year.

To further help ensure SSA receives the funds necessary to conduct all needed
redeterminations, we support a legislative proposal to create a self-funding program
integrity fund. This proposal was drafted by SSA and, as of June 2008, contained the
following elements.

• Provide authority for SSA to expend a portion of actual collections of erroneous
  payments on activities to prevent, detect, and collect erroneous payments.
  Specifically, the proposal would establish permanent indefinite appropriations,
  subject to Office of Management and Budget apportionment, to make available to
  SSA up to 25 percent of the actual overpayments collected during the base FY and
  make available to the Office of the Inspector General up to 2.5 percent of the same
  collected overpayments.

• Establish a revolving fund that would be financed from SSA’s stewardship/program
  integrity activities’ projected lifetime savings. That is, SSA would be permitted to
  deposit up to 50 percent of the estimated future lifetime program savings from
  processing such program integrity activities as (but not limited to) continuing disability
  reviews, SSI redeterminations, Cooperative Disability Investigation Units, and
  Special Office of the General Counsel prosecutions. The Commissioner would be
  authorized to fund initiatives that would yield at least a 150-percent return on
  investment in a 10-year time period. This proposal would link budgeting for cost-
  effective program integrity activities with their results. 13




12
  In our Congressional Response Report: Select Social Security Administration Stewardship Efforts and
Reported Savings - A-08-02-22028, we suggested SSA evaluate the calculation of the $7 to $1 ratio.
13
   SSA’s FY 2010 President’s Budget request includes a significant increase in funding for program
integrity activities as part of the President’s initiative to make Government more effective and efficient.
The enhanced funding in FY 2010 represents part of a multi-year government-wide effort intended to allow
SSA to focus more closely on workloads or processes that are most vulnerable to improper payments.
Page 6 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
The Agency is not doing all that needs to be done to ensure it identifies individuals who
are no longer eligible for SSI or are receiving incorrect SSI payments. A well-managed
program should include identifying the number of redeterminations that should be
conducted each year and determining how funding will be allocated to complete needed
redeterminations.

We recognize that SSA has recently taken steps to increase the number of
redeterminations conducted. However, the number of redeterminations completed in
FY 2009 will still remain lower than historic levels in FYs 2000 through 2003.
Therefore, SSA should continue to work with Congress to secure the funds necessary
each year to conduct all redeterminations that are needed to avoid potential lost
savings. To do so, we recommend SSA:

1. Establish a methodology to identify the number of redeterminations that are needed
   each year. To the extent the annual number of necessary redeterminations is not
   completed, SSA should identify the lost savings and document the reasons the
   number of needed redeterminations was not completed.

2. Establish a methodology to identify the cost-savings ratio for redeterminations
   conducted each year.

3. Continue to pursue the establishment of a self-funding program integrity fund.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Potential Additional Savings

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FY       Fiscal Year
GAO      Government Accountability Office
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                   Appendix B

Scope and Methodology
To complete the objectives of our review, we:

•   Reviewed applicable laws and regulations and pertinent sections of the Program
    Operations Manual System related to Supplemental Security Income (SSI)
    redeterminations.

•   Reviewed the Social Security Administration’s (SSA) 2008 Annual Report of the
    Supplemental Security Income Program, Cost Analysis System, SSI Monthly
    Statistics, and other relevant documents to obtain

        °   the number and cost of redeterminations conducted or estimated during
            Fiscal Years 2001 through 2009 and

        °   the number of SSI recipients in Fiscal Years 2001 through 2009.

•   Interviewed individuals from SSA’s Offices of Budget and the Chief Actuary to obtain
    information on SSA’s budget process as it relates to conducting redeterminations.

The entity reviewed was the Office of Operations. Our work was conducted at the
Office of Audit in Kansas City, Missouri, and SSA’s Headquarters in Baltimore,
Maryland, from March through May 2009. We conducted our review in accordance with
                                                     1
the President’s Council on Integrity and Efficiency’s Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No. 110-
409 § 7, 5 U.S.C. App. 3 § 11.
                                                                               Appendix C

Potential Additional Savings
We estimated potential additional savings the Social Security Administration (SSA)
could have identified during Fiscal Years (FY) 2008 and 2009 if it conducted
redeterminations of Supplemental Security Income (SSI) recipients’ eligibility at the
same level it did in 2003. In fact, we estimate the additional savings for the 2-year
period would be approximately $3.3 billion (see Tables 1 and 2).

                                         Table 1
                        Potential Additional Savings in FY 2009
                  by Conducting Redeterminations at FY 2003 Level
  Approximate FY 2009 Savings Based on Anticipated Number of Redeterminations
Number of SSI Recipients                                                 7,504,271
Redeterminations as Percent of Recipients                                     18%
                                        1
Estimated Number of Redeterminations                                     1,382,100
                           2
Cost Per Redetermination                                                     $142
                      2
Estimated Total Cost                                                  $195,993,440
Approximate Savings (Estimated Total Cost multiplied by $7)         $1,371,954,080
        Potential FY 2009 Savings Based on Redeterminations at FY 2003 Level
Number of SSI Recipients                                                 7,504,271
2003 Redeterminations as Percent of Recipients                                36%
Potential Number of Redeterminations (Number of SSI Recipients
                                                                         2,701,538
multiplied by 2003 Redeterminations as Percent of Recipients)
Cost Per Redetermination2                                                    $142
Total Cost (Potential Number of Redeterminations multiplied by
                                                                      $383,618,334
Cost Per Redetermination)
Potential Savings (Total Cost multiplied by $7)                     $2,685,328,335
Additional Savings in FY 2009 (Potential Savings less
                                                                    $1,313,374,255
Approximate Savings)




1
 Number of Redeterminations does not equal Number of SSI Recipients multiplied by Redeterminations
as Percent of Recipients due to rounding.
2
 According to information provided by SSA’s Office of Budget, SSA’s FY 2009 budget was based on
$195,993,440 to conduct an estimated 1,382,100 redeterminations, which equates to a Cost Per
Redetermination of approximately $142.
                                                  C-1
                                          Table 2
                         Potential Additional Savings in FY 2008
                    by Conducting Redeterminations at FY 2003 Level
        Approximate FY 2008 Savings Based on Actual Number of Redeterminations
Number of SSI Recipients                                                     7,383,815
Redeterminations as Percent of Recipients                                         12%
                                    3
Actual Number of Redeterminations                                              899,507
Cost Per Redetermination 4                                                       $158
           5
Total Cost                                                                $142,540,431
Approximate Savings (Total Cost multiplied by $7)                         $997,783,017
          Potential FY 2008 Savings Based on Redeterminations at FY 2003 Level
Number of SSI Recipients                                                     7,383,815
2003 Redeterminations as Percent of Recipients                                    36%
Potential Number of Redeterminations (Number of SSI Recipients
                                                                             2,658,173
multiplied by 2002 Redeterminations as Percent of Recipients)
                          4
Cost Per Redetermination                                                         $158
Total Cost (Potential Number of Redeterminations multiplied by Cost Per
                                                                          $419,991,397
Redetermination)
Potential Savings (Total Cost multiplied by $7)                         $2,939,939,780
Additional Savings in FY 2008 (Potential Savings less Approximate
                                                                        $1,942,156,763
Savings)

 We also identified the additional savings for FYs 2004 through 2007 using the same
 methodology as above. We estimated additional savings for this 4-year period to be
 approximately $4.5 billion (see Table 3).

                                             Table 3
                           Potential Additional Savings FY 2004 - 2007
                Potential Additional Savings      Cost Per       Actual Redeterminations
      Year
                        (in millions)         Redetermination 6 as Percent of Recipients 7
      2007                 $2,223                   $165                  10%
      2006                 $1,393                   $127                  15%
      2005                   $721                   $129                  25%
      2004                   $178                   $128                  33%
      Total                $4,515                    ---                   ---




 3
  Number of Redeterminations does not equal Number of SSI Recipients multiplied by Redeterminations
 as Percent of Recipients due to rounding.
 4
     Cost Per Redetermination according to information provided by SSA’s Office of Budget.
 5
   Total Cost does not equal Number of Redeterminations multiplied by Cost Per Redetermination due to
 rounding.
 6
     Cost Per Redetermination as reported in SSA’s Cost Analysis System.
 7
     See Table 1 on Page 3 of this report.
                                                     C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      July 1, 2009                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income
           Redeterminations” (A-07-09-29146)--INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached are our responses to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME REDETERMINATIONS” (A-07-09-29146)

Our responses to your specific recommendations are as follows.

Recommendation 1

Establish a methodology to identify the number of redeterminations that are needed each year.
To the extent the annual number of necessary redeterminations is not completed, SSA should
identify the lost savings and document the reasons the number of needed redeterminations was
not completed.

Comment

We agree. We will begin developing such a methodology and, when necessary, report on lost
savings.

Recommendation 2

Establish a methodology to identify the cost-savings ratio for redeterminations conducted each
year.

Comment

We agree. We will begin developing a cost-savings ratio methodology.

Recommendation 3

Continue to pursue the establishment of a self-funding program integrity fund.

Comment

We agree. We continue to support innovative ways to fund program integrity work.




                                              D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Shannon Agee, Audit Manager

Acknowledgments

In addition to those named above:

   Tonya Eickman, Senior Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-09-29146.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
